Department of Health and Human Services
                         OFFICE OF
        INSPECTOR             GENERAL




NATIONAL CANCER INSTITUTE'S
 MONITORING OF RESEARCH
          PROJECT GRATS




        ~~ .u.p
            ~ SERVICes

                             Daniel R. Levinson


       (~~..
        ~.lIlcf"a (:
                              Inspector General

                                 July 2008
                              OEI-07-07-00120
                             Office of Inspector General
                                                      http://oig.hhs.gov
The mission ofthe Offce ofInspector General (OIG), as mandated by Public Law 95-452, as
 amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

 Office of Audit Services
The Offce of Audit Servces (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilties and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and effciency throughout HHS.

 Office of Evalua tion and Inspections
The Offce of Evaluation and Inspections (OEr) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable inormation on signifcant
issues_ These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, effciency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Offce of Investigations (Or) conducts criminal, civi, and adminstrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of 01 often lead to criminal
convictions, administrative sanctions, and/or civi monetary penalties.

Office of Counsel to the Inspector General
                                                                   legal services to
The Offce of Counsel to the Inspector General (OCIG) provides general

OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG's internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
.. EXECUTIVE SUMMARY
                    OBJECTIVE
                   To determine the extent to which the National Cancer Institute (NCr)
                   monitors Research Project Grants in accordance with Federal
                   regulations, departmental directives, and agency policies regarding:
                   (1) progress reports, (2) financial reports, (3) grant closures, and
                   (4) grant fies.

                   BACKGROUND
                   For fiscal year (FY) 2007, the National Institutes of       Health (NIH)
                   disbursed 54 percent of its $29.1 billon budget via more than
                   38,000 Research Project Grants. NCI is the largest ofthe NIH
                   institutes and had responsibility for over $2.1 bilon in Research
                   Project Grants in FY 2007. In FY 2007, the Offce of Inspector General
                   (OIG) identified grants management (including the monitoring of
                   grants) as a top management challenge.
                   NCI monitors grants by reviewing report (e.g., progress and financial),
                   correspondence from grantees, audit reports, site visit reports, and
                   other available information. We requested and received from NCI a list
                   ofResear,ch Project Grants that received funding in at least 1 year
                   during FYs 2004, 2005, or 2006. This list contained 4,578 grants
                   totaling more than $3 bilion. From the population, we selected a
                   random sample of 100 grants for review. We reviewed each grant for
                   NCI's postaward monitoring in the following areas: progress reports,
                   financial reports, grant closeouts, and grant fies (i.e., the completeness
                   and accuracy of grant file materials).

                   FINDINGS
                   All grant files contained progress report that had evidence of
                   agency review; however, 41 percent of progress report were
                   received late. All required progress reports for FY s 2004, 2005, and
                   2006 for all 100 grants were present in the files. In addition, the case
                   files contained documentation of assessments of all of the progress
                   reports by the grants management specialist and the program staff
                   assigned to each grant. However, 41 percent of          progress reports were
                   not received within the required timeframes (i.e., 2 months before the
                   next budget period for hard copy or 45 days before the next budget
                   period for electronic reports). Ofthese, electronic reports were received
                   an average of 18 days late and hard copy reports averaged 16 days late.

 OEI.07-07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS
EXECUTIVE                          SUMMARY
                  We note that grantees' delay in submitting progress reports posed a low
                  risk because NCI did not disburse funds until it had received and
                  reviewed progress reports.
                   Deficiencies exist in financial oversight of Research Project Grants.
                  NCI grants management staff indicated that they rely on NIH's Offce
                  of Financial Management to monitor quarterly financial reports to
                  ensure that grantees are properly drawing funds. However, an Offce of
                  Financial Management offcial indicated that this offce does not
                  examine or maintain copies of quarterly financial reports; these are
                  submitted to the Payment Management System only. In our sample of
                  100 grants, 23 had reached the end of their grant periods during our
                  period of review and all 23 grant fies contained Financial Status
                  Reports. However, 11 of the Financial Status Reports were submitted
                  late and 12 indicated dates that did not reflect the entire budget
                  periods.
                  Five of the nine required grant closeouts in our sample were not
                  completed within the general timeframes specified in departmental
                  guidelines. Of the 100 grants in our sample, 9 were closed or eligible
                  for closeout. For five of the nine grants, the closeout process was not
                  completed within 180 days as generally required by departmental
                  policy. In addition, one closed grant lacked the required final Invention
                  Statement and Certification. Upon request, NCI staff could not provide
                  the statement; however, staff        located it after we shared a draft ofthis
                  report.
                  Insuffcient documentation impedes third-part review of grant files
                  in some cases. Departmental grant policy directives require awarding
                  agencies to create and maintain fies that allow a third party
                  (e.g., auditor or other reviewer) to follow the paper trail, from program
                  inception through closeout of individual awards, and decisions made
                  and actions taken in between. While conducting a review of grant files,
                  we encountered documents with inaccurate dates and an inconsistent
                  filing structure and found that some files were missing, all of which
                  impeded the review process.




OEI.07-07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                    II
EXECUTIVE                            SUMMARY

                   RECOMMENDATIONS
                   OIG recommends that NCI:
                  Initiate earlier and more frequent followup with grantees to obtain
                  required documents. Such diligence could promote grantee compliance
                  with Federal regulations and agency policies for submitting progress
                  reports, Financial Status Reports, and closeout documents.
                   Improve grants monitoring by:
                  · annually verifying grantees' self-reported fund balances with
                      external sources and developing an approach for financial reviews
                      that is not based solely on exceptions, and
                  · consistently documenting grantee correspondence and organizing
                           grant documents to assist NCI staff and third-party reviewers with
                           following grantees' actions from inception ofthe grant to    closeout.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  NIH generally agreed with our recommendations and described actions
                  it plans to take in response to the recommendations. Regarding late
                  submission of progress reports, Financial Status Reports, and closeout
                  documents, NIH will continue to address this issue in education
                  outreach sessions with grantee offcials and stress the need for
                  institutions to monitor and adhere to all report deadlines. In addition,
                  NIH expects to increase timeliness of reporting by grantees through
                  continued development and deployment of its electronic grants
                  management system, enabling electronic submission of certain progress
                   and closeout reports. Regarding the recommendation to improve grants
                   monitoring by annually verifing grantees' self-reported fund balances
                   with external sources and developing an approach for financial reviews
                   that is not based solely on exceptions, NIH agreed that there may be
                  . value in using the Federal Cash Transaction Report on a broader scale
                   and wil conduct a pilot study to review the Federal Cash Transaction
                  Report        prior to issuing the award for a specific pool of grants. At the
                  end of the pilot study, NIH wil identify the population of grants for
                  which review of the Federal Cash Transaction Report wil be required,
                  as well as best practices for the review and for resolution of any issues
                  that arise from the review. Additionally, NIH agreed with the
                  recommendation that grant files be properly documented and

OEI.07.07.00120   MONITORING OF Nei RESEARCH PROJECT GRANTS                                        III
EXECUTIVE                       SUMMARY
                   organized. NIH wil continue to monitor the use of its electronic grant
                   system and update procedures for fie documentation as necessary. We
                   did not make any revisions to the report based on NIH's comments.




OEI.07-07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS
                                                                                       Iv
.. TABLE            o F           CONTENTS

      EXECUTIVE SUMMARy..................................... 1



      INTRODUCTION ......... ........ ... ... ....... .... ... ... .... 1

      FIN DIN G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 10
                All progress reports reviewed; 41 percent received late. . . . . . .. 10

                Deficiencies exist in financial oversight. . . . . . . . . . . . . . . . . . . .. 11

                Grant closeouts not completed within general timeframes. . . . .. 14
                Insuffcient documentation impedes third-party review. . . . . . .. 15



      R E COM MEN D A T ION S ..................................... 17
                Agency Comments and Offce of Inspector General Response ... 18



      A P PEN D I XES ............................................. 19
                A: Glossary of Grant Terms. . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 19

                B: Confidence Interval. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . " 20
                C: Agency Comments. . . . . . . . . . . . . . . . . . . . . . .. . . .. . . . . . .. 21

      A C K NOW LED G MEN T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 29
..    INTRODUCTION
                   OBJECTIVE
                   To determine the extent to which the National Cancer Institute (NCI)
                   monitors Research Project Grants in accordance with Federal
                   regulations, departmental directives, and agency policies regarding:
                   (1) progress reports, (2) financial reports, (3) grant closures, and
                   (4) grant fies.


                   BACKGROUND
                   For fiscal year (FY) 2007, the National Institutes of             Health (NIH)
                   disbursed 54 percent of               its $29.1 bilion budget via more than
                   38,000 Research Project Grants.i The NIH budget constitutes
                   approximately 38 percent of all discretionary spending for the
                   Department of Health and Human Servces (HHS) and nearly
                   50 percent of Federal civiian spending for research and development.2
                   Extramural research, performed by non-Federal scientists using NIH
                   grant or contract money, includes more than 200,000 scientists and
                   research personnel working in over 3,100 universities, academlc health
                   centers, hospitals, and independent research institutions in the United
                   States and abroad.3 NCI is the largest ofthe NIH institutes and had
                   responsibility for over $2.1 bilion in Research Project Grants in
                   FY 2007.4
                   In FY 2007, the Office ofInspector General (OIG) identified grants
                   management (including the monitoring of grants) as a top management
                   challenge.5 A previous OIG report on grants monitoring in one HHS
                   agency found that fiancial reports either were not received or were late
                   and that Federal requirements for grant closeout were not met.6



                     1 NIH, "Summary of the Fiscal Year (FY) 2009 President's Budget," February 4, 2008.
                     2 Congressional Research Service (CRS) Report for Congress, "The National Institutes of
                   Health (NIH): Organization, Funding and Congressional Issues," October 19, 2006.
                   Available online at http://www.nih.iwv/aboutldirector/crsrept.pdf. Accessed on
                   December 12, 2006.
                     3 Ibid., p. 6.
                     4 NCI, "The Nation's Investment in Cancer Research," January 2008.

                     5 OIG, "FY 2007 Top Management and Performance Challenges Identifed by the Offce
                   of Inspector GeneraL" Available online at
                   http://www.hhs.gov/afr/information/challenges/index.htmL. Accessed on February 27,2008.
                     6 HHS, OIG, "Agency for Healthcare Research and Quality: Monitoring Patient Safety

                   Grants" (OEI-07-04-00460), June 2006.




 OEI.07.07-00120   MONITORING OF Net RESEARCH PROJECT GRANTS                                                 1
INTRODUCTION
                  The National Cancer Institute
                  NCI, established under the National Cancer Institute Act of 1937, is the
                  principal Federal agency for cancer research and training. It
                  coordinates the National Cancer Program, which conducts and supports
                  research, training, health information dissemination, and other
                  programs with respect to the cause, diagnosis, prevention, and
                  treatment of cancer; rehabilitation following cancer; and the continuing
                  care of cancer patients and their familes. As part of its responsibilties,
                  NCI awards, monitors, and closes grants related to the National Cancer
                  Program.
                  NCI awards Research Project Grants to support research into the
                  causes, diagnosis, prevention, or treatment of cancer. These grants
                  account for the largest share of the NIH extramural research budget
                  and include grants to individual investigators, small teams, and groups
                  of researchers who work in collaborative programs or in
                  multidisciplinary centers that focus on particular diseases or areas of
                  research.7 An NCI Research Project Grant typically lasts 4 to 5 years-
                  an award period termed a competitive segment. The grantee does not
                  need to compete annually for continuation of funding when it has
                  received a multiyear Research Project Grant. A grantee may seek
                  extensions of the grant or apply for a new award, leading to another
                  competitive segment.
                  Applicable Federal Regulations, Departmental Directives, and Agency
                  Policies
                  Federal regulations contained in 45 CFR Part 74 establish uniform
                  administrative requirements governing HHS grants to institutions of
                  higher education, hospitals, and other nonprofit organizations.
                  The HHS Grants Policy Directives (GPD) provide guidance on grants
                  management issues to affected program offces at all organizational




                    7 CRS Report for Congress, "The National Institutes of Health (NIH): Organization,
                  Funding and Congressional Issues," October 19, 2006, p. 6. Available online at
                  htt.p://www.nih.gov/about/director/crsrept..pdf. Accessed on December 12, 2006.



OEI.07.07.00120   MONITORING OF He! RESEARCH PROJECT GRANTS                                              2
 NTRODUCTION
                   levels within the Department.8 The GPD is the highest level of grants
                   policy issued by HHS. Part 1.01 ofthe GPD instructs agencies such as
                   NIH not to merely repeat the language in the GPD or reissue the GPD
                   in its entirety when developing their own implementation manuals.
                   Rather, HHS agencies are required to develop more detailed grants
                  administration manuals that reflect their implementation of the
                  directives. The NIH Grants Policy Statement, dated December 1, 2003,
                  is the policy document that contains the terms and conditions ofNIH
                  grant awards. A glossary of grant-related terms can be found in
                  Appendix A.
                  Grants-Monitoring Responsibilties
                  To fulfill its role in regard to the stewardship of Federal funds, NCI
                  monitors its grants to identify potential problems and areas in which
                  technical assistance might be necessary. NCI monitors grants by
                  reviewing reports (e.g., progress and financial), correspondence from the
                  grantee, audit reports, site visit reports, and other available
                  information. Grants monitoring continues for as long as NCI retains a
                  financial interest in the project or activity. As a result, property
                  accountabilty, auditing, and other requiements may continue after the
                  grant is closed out and NCI is no longer providing active grant support.9
                  NCI's Offce of Grants Administration is the focal point for all
                  business-related activities associated with the negotiation, award, and
                  administration of grants. Its Web site indicates responsibilities for the
                  following activities related to grants management:
                  · monitoring the financial and management aspects of grants to
                      ensure the effective utilization of Federal funds;
                  · building and maintaining a partnership with the grantee and NCI
                      program and review staff to ensure the issuance of award documents
                      that clearly communicate grant requirements and protect NIH from
                      waste, mismanagement, and costly disputes; and




                    8 Grants Policy Directives are issued as an instrument of
                                                                              internal Department
                  management to direct Department staff regarding HHS's policies, standards, and
                  procedures. For grantees and other interested parties, the Department also issues the HHS
                  Grants Policy Statement to provide grantees up-to-date policy guidance and information on
                  HHS and its discretionary grant process. Available online at
                  http://www.hhs.!wv/grantsneUadminis/gpdlindex.htm. Accessed on February 26, 2008.
                     9 NIH, "Grants Policy Statement," December 1, 2003, pp. 128-129.



OEI-07-07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                               3
INTRODUCTION
                  . providing quality service promptly within NIH and to the grantee
                        community to reflect a continuing commitment to improve grants
                        management, thus enabling the grantee to perform its research
                        unfettered, in an open Federal research environment free of
                       unnecessary record collection and reporting requirements.                     10


                  Documentation Requirements
                  HHS GPD Part 3.06 requires awarding agencies to create and maintain
                  fies that allow a thid party to follow the paper trail, beginning with
                  program inception through closeout of grants, and decisions made and
                  actions taken in between. An offcial file must be created for each grant
                  and must contain the following documentation, as applicable:
                  · signed copies of applications and all documentation related to review
                       and approval of the applications;
                  . all notices of grant award;

                  . any approved deviations;

                  . site visit reports, records of telephone calls, and postaward technical
                       assistance provided;
                  . prior approval requests and other postaward correspondence;

                  . documentation related to enforcement actions, including any grant
                      appeals;
                  · required financial and progress reports and evidence of review and
                      acceptability;
                  . invention statements;ll and

                  . closeout documentation.

                  In 2000, NCI began using an electronic imaging system called eGrants to
                  store and retrieve documents contained in the offcial NCI grant files.
                  eGrants is an Internet-based data system that allows its users access to
                  grant information, including grant applications, progress reports, and
                  review checklists. Grant documents are organized by grant identification
                  number, award year, and document type. Site visit information is


                     10 NCI Offce of
                                     Grants Administration function. Available online at
                  http://www3.cancer.gov/adminlgab/function.htm. Accessed on December 20, 2007.
                     llGrantees are required to submit Form HHS 568, Final Invention Statement and
                  Certification, within   90 days of the end of grant support. NIH Grants Policy Statement,
                  December 1, 2003, p. 139.



OEI.07.07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                                   4
NTRODUCTION
                  maintained separately within eGrants in the Institutional File, which is
                  organized alphabetically by institution name.
                  Grantee Requirements and the Streamlined Non-Competing Award Process
                  Grantees must periodically submit progress and financial reports to
                  NIH. Other required reports may include invention reports, lobbying
                  disclosures, audit reports, and specialized programmatic reports.12
                  As part of the notice of grant award, NIH states whether a grantee is
                  permitted to use the Streamlined Non-Competing Award Process (SNAP).
                  Most NIH Research Project Grantees are subject to SNAP.13 Under SNAP,
                  NIH negotiates the direct costs for the entire competitive segment at the
                  time of award. This eliminates the need for annual budget submissions
                  and negotiations and reduces the information that NIH requires to review,
                  approve, and monitor noncompeting awards.
                  Grantees with SNAP awards are allowed to submit abbreviated annual
                  progress reports_ These can be submitted via the Grant Progress Report
                  (Form PHS 2590) or an eSNAP report. NIH grant policy requires grantees
                  to submit an annual Grant Progress Report 2 months before the beginning
                  of the next budget period or an eSNAP report 45 days before the beginning
                  of the next budget period.14

                  For financial reporting, grantees with SNAP awards are required to
                  submit the Federal Cash Transaction Report (Form PMS 272) within
                  15 days following the end of                 the quarter. The Federal Cash Transaction
                  Report is submitted to the HHS Division of Payment Management.15 At
                  the end of the award, the grantee is required to submit a Financial
                  Status Report (FSR) (Form SF 269) covering the entire competitive

                     12 NIH, "Grants Policy Statement," December 1, 2003, p. 129.
                     13 Grantees may be excluded from SNAP if their grants require close project monitoring
                  or technical assistance or the grantees have a consistent pattern of failure to adhere to
                  appropriate reporting or notifcation deadlines.
                     14 Instructions for ''U.S. Department of Health and Human Services, Public Health
                  Service, Non-Competing Grant Progress Report (PHS 2590)," Revised November 2007.
                  Forms approved through November 30, 2010, Offce of Management and Budget (OMB)
                  No. 0925-0001, p. 2. Available online at
                  http://irrantsl.nih.irov/irrants/fundinid2590/phs2590.doc. Accessed on January 9, 2008.
                  Instructions for submitting the eSNAP. Available online at
                  http://grants.nih.irov/grants/submitapplication.htm.AccessedonNovember6,2007.NCI
                  staff confimed that submission requirements for FY s 2004, 2005, and 2006 were the same
                  as those described in these more recent instructions.
                     15 Due dates for Federal Cash Transaction Reports. Available online at
                  http://www.dpm.psc.gov/grant recipient/reports/due dates.   asp   x? Accessed on
                  February 21, 2008.


OEI.07.07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                                   5
INTRODUCTION
                   segment no later than 90 days after the end of the competitive
                   segment.16 According to NCI, the submission of timely and accurate
                   FSRs is central to ensuring prudent and effcient stewardship of public
                   resources.17
                   Grant Closeout
                  Grant closeout is the fial stage ofthe grants-monitoring process. The
                  HHS GPD Part 4.02 states that awarding agencies generally shall close
                  out grants within 180 days of the end of grant funding. The NIH
                  Grants Policy Statement states that NIH will close out a grant as soon
                  as possible after expiration if the grant wil not be extended or after
                  termination. Unless NCI grants an extension, grantees are required to
                  submit a fial progress report, a final FSR, and a final Invention
                  Statement and Certification (Form HHS 568) within 90 days of the end
                  of the grant period.     18


                  Grantee Interaction With NIH
                  Each grantee is assigned a grants management specialist from the NCI
                  Grants Administration Branch to whom it may address any questions.
                  In addition, grantees interact with NIH's Offce of Financial
                  Management, the receipt point for FSRs. Grant payments and Federal
                  Cash Transaction Reports are administered through the HHS Payment
                  Management System. Grantees request payments via an
                  Internet-based application, and these are electronically transmitted to
                  the grantees' bank accounts.
                  Enforcement Actions
                  When a grantee fails to comply with the terms and conditions of the
                  grant, NCI may take one or more enforcement actions depending on the
                  severity and duration of the noncompliance. NCI generally wil afford
                  the grantee an opportunity to correct the deficiencies before taking
                  enforcement action unless public health or welfare concerns require
                  immediate action. However, even if a grantee is taking corrective
                  action, NCI may take action to protect the Federal Government's
                  interests, including placing special conditions on awards or precluding
                  the grantee from obtaining future awards for a specified period, or may



                    16 NIH, "Grants Policy Statement," December 1, 2003, p. 131.
                    17 NCI, "Everything You Wanted to Know About the NCI Grants Process But Were
                  Afaid to Ask," revised August 2005, p. 70.
                    18 NIH, "Grants Policy Statement," December 1, 2003, p. 139.



OEI.07.07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                        6
NTRODUCTION
                  take action designed to prevent future noncompliance, such as closer
                  monitoring .19


                  METHODOLOGY
                  We requested and received from NCI a listing of                   Research Projects
                  Grants (R01) that received funding in at least 1 year durig FYs 2004,
                  2005, or 2006. This listing contained 4,578 grants totaling more than
                  $3 bilion. From the population, we selected a random sample of
                  100 grants for review. In the population, all but 0.5 percent ofthe
                  grants were awarded subject to SNAP. In our sample, all of the grants
                  were SNAP awards.
                  Grant File Review
                  For the purpose of reviewing the grant files, the study team members
                  obtained read-only access to NCI's eGrants system. In instances in
                  which we could not locate documentation electronically, we requested
                  hard-copy documents from NCI staff.
                  Using a structured instrument, we reviewed each grant for NCI's
                  postaward monitoring in the following areas with respect to Federal
                  regulations, HHS Grants Policy Directives, and NIH policies and
                  procedures:
                  Proaress reports. We determined whether progress reports were
                  complete and submitted timely. Pursuant to 45 CFR § 74.51, we
                  reviewed the progress report for (1) a comparison of actual
                  accomplishments with the goals and objectives established for the
                  period, the findings ofthe investigator, or both; and (2) the reasons
                  established goals were not met, if appropriate. Grantees are required to
                  submit annual Grant Progress Reports 2 months before the beginning of
                  the next budget period or the eSNAP reports 45 days before the
                  beginning of the next budget period.20 In total, we reviewed
                  256 progress reports (202 were Form PHS 2590 and 54 were eSNAP).


                     19 NIH, "Grants Policy Statement," December 1, 2003, p. 136.
                    20 Instructions for "U.S. Department of
                                                         Health and Human Services, Public Health
                  Service, Non-Competing Grant Progress Report (PHS 2590)," revised November 2007.
                  Forms approved through November 30, 2010, OMB No. 0925-0001, p. 2. Available online at
                  http://grants l.nih.iwv/grants/funding/2590/phs2590.doc. Accessed on January 9, 2008.
                  Instructions for submitting the eSNAP. Available onlie at
                  http://grants.nih.gov/grants/submitapplication.htm.AccessedonNovember6,2007.NCI
                  staff confimed that submission requirements for the years FYs 2004, 2005, and 2006 were
                  the same as those described in these more recent instructions.


OEI-Ol-Ol-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                                 7
INTRODUCTION
                  We projected timeliness of progress reports to the universe of N CI
                  Research Project Grants that received funding in at least 1 year during
                  FY s 2004, 2005, or 2006. Because progress reports are required to be
                  submitted annually on every grant, we were able to project this
                  statistic. The point estimate and 95-percent confdence interval can be
                  found in Appendix B.
                  Financial Status Reports. We determined whether FSRs were complete and
                  timely. Pursuant to 45 CFR § 74.52, grantees are to submit FSRs no later
                  than 90 days after the end of the reporting period. An FSR is required
                  from SNAP grantees only at the end of a competitive segment.21 Because
                  a competitive segment is typically 4 to 5 years for a SNAP grantee and our
                  period of review was 3 years, only 23 FSRs were within the scope of our
                  review. We reviewed those 23 FSRs.

                  Grant closeout. For grants that were closed or eligible for closeout, we
                  reviewed the grant fies to determine whether NCI complied with
                  departmental and agency guidance concerning grant closeout
                  procedures. Nine grants in our sample were either closed or in the
                  process of closeout. We reviewed these grant fies for documentation of
                  grantee submission of the final progress report, the final FSR, and the
                  final Invention Statement and Certifcation within 90 days after
                  completion of the grant.22 We also determined whether NCI closed out
                  these grants within 180 days of the end of grant support pursuant to
                  HHS GPD part 4.02.
                  Grant fies. To assess the documentation, we reviewed the grant fies to
                  determine whether NCI's monitoring processes (1) followed up with
                  grantees to obtain any delinquent reports; (2) escalated enforcement
                  actions in the event of continued Q.elinquency; (3) reviewed and provided
                  feedback to the grantee; and (4) accepted revised reports from grantees,
                  if applicable, in accordance with GPD Part 3.06B. We also reviewed the
                  grant files for documentation of enforcement actions (e.g., temporarily
                  withholding cash payment pending the receipt of a required financial
                  report).23




                    21 NIH, "Grants Policy Statement," December 1, 2003, p. 131.
                    2245 CFR § 74.71 and NIH, "Grants Policy Statement," December 1, 2003, p. 139.
                    23 NIH, "Grants Policy Statement," December 1, 2003, p. 136.



OEI-07-07.00120   MONITORING OF Net RESEARCH PROJECT GRANTS                                          8
INTRODUCTION
                   Grant File Followup and Interviews
                  We also consulted NCI staff throughout our review for answers to
                  questions concerning the documentation fóund in the grant fies. We
                  conducted structured telephone interviews with offcials from the Offce
                  of Financial Management and the HHS Payment Management System
                  to obtain information on their functions with respect to monitoring the
                  financial aspects of NCI Research Project Grants.
                  Standards
                  This study was conducted in accordance with the "Quality Standards for
                  Inspections" issued by the President's Council on Integrity and
                  Effciency and the Executive Council on Integrity and Efficiency.




OEI-07-07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                          9
   .. FINDINGS
                                                                    GPD Part 3.06 emphasizes the
All grant files contained progress report that had                  importance of posta ward
  evidence of agency review; however, 41 perc~nt                    monitoring of grants. The guidance
             of progress report were received late                  states that the monitoring
                                                              approach should be consistent with
                        45 CFR Part 74 and include review of   performance reports (i.e., progress
                        reports), related audits, and other required reports. The assessment
                        should take place on an ongoing basis, but must be documented at least
                        annually and the results included in the grant fie.
                        NCI grants management staff review progress report
                        Al required progress reports for FY s 2004, 2005, and 2006 for all
                        100 grants were present in the files, totaling 256 progress reports. In
                        addition, the case fies had documentation of the assessments of all of
                        the progress reports by the grants management specialist and the
                        program staff assigned to each        grant. We observed that grants
                        management specialits focused their review of progress reports on the
                        responses that grantees provided in three required areas: (1) changes in
                        the sources of salaries for key personnel occurring since the last
                        reporting period, (2) anticipated changes in the level of effort for key
                        personnel from what was approved, and (3) potential unobligated funds
                        greater than 25 percent of the current year's total budget.
                        Program staff also reviewed progress reports for changes in research goals
                        and objectives, the use of human and/or animal subjects, and indications of
                        whether the grantee's progress was satisfactory for continued funding. We
                        observed that grants management specialists followed up with grantees
                        concerning any omissions from the progress reports or clarifications
                        needed for the information provided. NCI did not award additional funds
                        until the progress report was received and reviewed, demonstrating a
                        relationship between monitoring and continued grant funding. For each of
                        the sampled grants, NCI established the beginning date of the new budget
                        period based on receiving a complete progress report that satisfied all
                        requirements.
                        Forty-one percent of progress report were not received timely
                        For the period of our review, NCI accepted either hard-copy progress
                        reports or electronically submitted eSNAP reports. NIH grant policy
                        requires grantees to submit the hard-copy progress reports 2 months
                        before the beginning of the next budget period or the eSNAP reports
                        45 days before the beginning of the next budget period.



      OEI-07-01.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                  10
F IN 0 I NG S

                   Forty-one percent were not received withi the required timeframes.
                   We note that grantees' delay in submitting progress reports posed a low
                   risk because NCI did not disburse funds until it had received and
                   reviewed progress reports. Table 1 shows the range and average
                   number of days past due for progress reports that we reviewed.


                        Table 1: Late Progress Reports for 100 Sampled Grants

                                                Number
                                                              Number      Range of      Average
                        Report FORnat                        Received    Number of     Number of
                                               Received
                                                                 Late     Days Late    Days Late

                        Electronic                    54             7        1-39            18
                        Hard copy                    202            99        1-86            16
                          Total                      256           106         N/A           N/A
                       Source: OIG analysis of progress reports, 2007.

                   The grant fies for some of the late progress reports contained copies of
                   letters that NCI sent to grantees informing them that a progress report
                   was due but had not yet been received. As evidenced in the grant file,
                   NCI sent a letter on March 5, 2004, to a grantee stating that a progress
                   report had been due on or before February 1, 2004. The letter advised
                   the grantee that ifthe report was not received by March 17, 2004,
                   funding might be jeopardized.


                                                                    NIH guidance states that NIH
    Deficiencies exist in financial oversight of
                                                                    awarding offices fulfil their role in
                        Research Project Grants                     regard to the stewardship of Federal
                                                                    funds by monitoring grants to
                   identif potential problems and areas where technical assistance might be
                   necessary. Although we observed consistent review of progress reports, we
                   did not observe the same level of examination of financial reports. We
                   identifed three deficiencies with respect to NCI's financial oversight of
                   grants: (1) Federal Cash Transaction Reports are not monitored; (2) long
                   periods of time elapse between funding and grantees' submission of FSRs;
                   and (3) some FSRs are received late and contain incorrect budget period
                   dates. The amount of Federal funds represented in our sample of
                   100 grants totaled $ 106 milion.
                   Federal Cash Transaction Report are not monitored; NCI relies on
                   self-reported information regarding unobligated funds
                   We asked NCI grants management staff whether they monitor the
                   submission of the quarterly Federal Cash Transaction Reports. They

 OEI.07.07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                        11
FINDINGS
                   told us that they do not. Instead, NCI grants management staff
                   indicated that they rely on the Offce of Financial Management to
                   monitor Federal Cash Transaction Reports to ensure that grantees' are
                  properly drawing funds. NCI grants management staff       told us that
                   some, but not all, grants management specialists have access to the
                  Payment Management System, and very rarely would they check
                  Federal Cash Transaction Reports unless a grantee reported a problem.
                  However, an Offce of Financial Management offcial told us that his
                  offce "does not get involved with Federal Cash Transaction Reports."
                  The offcial indicated that Federal Cash Transaction Reports are
                  submitted only to the Payment Management System and that the Offce
                  of Financial Management does not examine or maintain copies of them.
                  We were unable to identif anyone who regularly reviewed the Federal
                  Cash Transaction Reports.
                  The annual progress report requires grantees to report unobligated
                  funds greater than 25 percent ofthe current year's total budget. We
                  asked grants management staff whether they verify this information
                  with an external source. NCI grants management staff indicated that
                  the grantee is the only source that they would check for the current
                  balance.
                  Long periods of time elapse between funding and submission of FSRs
                  NCI grants management staff indicated that they monitor the
                  submission of the FSR to see whether it has been submitted to and
                  approved by the Offce of Financial Management. For SNAP awards,
                  the FSR is required at the end of the project period, which is typically
                  4 to 5 years. However, even more time may elapse before submission of
                  the FSR, depending on whether the grantee requests a project extension
                  of 1 to 2 years. For example, from July 1, 2001, to June 30, 2006, a
                  grantee received $1,117,672. The grantee requested and received two
                  I-year extensions to complete the project, making the new project end
                  date June 30, 2008. The FSR is not due until September 30, 2008-
                  more than 7 years after funds were first awarded.
                  Eleven of twenty-three Financial Status Reports in our sample were received
                  late and some contained incorrect budget period dates
                  In our sample of 100 grants, 23 reached the end of their competitive
                  segments during FYs 2004, 2005, or 2006. All  23 FSRs were present in
                  the fies. However, 11 of the 23 FSRs were submitted more than
                  90 days after the end of the project periods. These reports were
                  submitted between 8 and 573 days late. The grant files for some of the


OEI-07-07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                12
FINDINGS
                    late FSRs contained letters that NCI sent to grantees informing them
                    that an FSR was due but had not yet been received. For example, .NCI
                    sent a letter on March 22, 2006, to a grantee stating that an FSR was
                    past due. Because the project period had ended April 30, 2005, the FSR
                    was 237 days past due when the letter was sent. Grants management
                    staff explained that they check for the receipt of an FSR for a prior
                    project period before awarding the second year of   funding in a new
                    project period. If the FSR is not on fie, then a deficiency letter is sent
                    to the grantee as a reminder of the requirement to submit the FSR, and
                    the annual grant award is not issued until the FSR has been received
                    and accepted.
                    For SNAP awards, the FSR must report on the cumulative support
                    awarded for the entire competitive segment.24 For 12 of     the 23 FSRs
                    that we reviewed, the grantee reported dates on the FSR that did not
                    reflect the entire budget periods. Often, a grantee reported a period of
                    only 1 year. NCI grants management staff indicated that grantees often
                    mistakenly list the last year of the project period for the applicable
                    dates on the FSR but that this is an oversight. These FSRs usually
                    included the full amounts awarded in the project period but attributed
                    these amounts to an incorrect time period.
                    At the time of our review, the deficiency letter sent to grantees when
                    FSRs were late instructed grantees to submit "a completed Financial
                    Status Report (FSR) for the grant year prior to the last award.'~ We
                    asked NCI grants management staff   why the letter was worded in that
                    manner. They explained that the letter was a form letter that is
                    generally not altered for SNAP awards to indicate the entire prior
                    project period. (Grantees that are not subject to SNAP must submit
                    FSRs annually.) NCI grants management staff reported that the letter
                    is suffcient to notify the grantee of the need for an FSR. However, the
                    language, which is inaccurate for grantees of SNAP awards, may lead to
                    these grantees' reporting on periods of shorter duration than the entire
                    competitive segment. Subsequent to our review, this deficiency letter
                    was revised to reflect that grantees should submit an FSR for the entire
                    competitive segment.




                       24 NIH, "Grants Policy Statement," p. 131.



OEI-07 -07 -00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                               13
 FINDINGS
 Five of the nine required grant closeouts in our                      Ofthe 100 grants in our sample,
                                                                       9 grants were closed or eligible for
  sample were not completed within the general
                                                                       closeout. For five of the nine
timeframes specified in departmental guidelines
                                                          grants, the closeout process was
                                                          not completed within 180 days as
                     generally required by departmental policy.25 In one of these instances,
                     the grantee had received a I-year project extension, which made the
                     new project end date December 31,2005. The grantee submitted the
                     final FSR on January 27,2006, but neither the final progress report nor
                     the final Invention Statement and Certification had been received as of
                     October 2007. When we asked NCI grants management staff about the
                     closing of this grant, the staff responded that delinquency letters were
                     sent on April  4 and October 24, 2006. The grant remained open at the
                     time of our review. In addition, one closed grant lacked the required
                     final Invention Statement and Certification. Upon request, NCI staff
                     could not provide the statement. After we shared a draft of this report,
                     NCI staff conducted additional research to locate the statement and
                     uploaded the form to eGrants.
                     During our review, we noted a particular practice that may delay
                     closing grants. When a grantee approaches the end of the current
                     competitive segment, it may submit a new application to continue the
                     research for an additional competitive segment. Such applications
                     require assessment and scoring by the review committee to determine
                     whether the application will receive funding. When an application does
                     not receive funding, the grantee has two opportunities to submit
                     amended applications. During this time, the grant remains open. For
                     example, a grantee received an award with the competitive segment of
                     July 1,2000, to June 30, 2005. The grantee submitted an application
                     for an additional competitive segment on April                 14, 2005, but it did not
                     receive funding. The grantee submitted an amended application on
                     December 7,2005, which also did not receive funding. The grantee
                     submitted a second amended application on July 26, 2006, that was
                     approved by the review committee in January 2007. The new
                     competitive segment began April 1, 2007, nearly 2 years after the end of
                     the original competitive segment.



                        25 GPD Part 4.02 states that grants generally shall be closed out within 180 days of the
                     end of grant support.



   OEI-07.07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                                     14
FINDINGS
Insuffcient documentation impedes third-part                                     The HHS GPD Part 3.06 requires
                                                                                 awarding agencies to create and
               review of grant files in some cases
                                                                                 maintain fies that allow a third
                                                                                 party (e.g" auditor or other
                     reviewer) to follow the paper trail, from program inception through
                     closeout of      individual awards, and decisions made and actions taken in
                     between. While conducting a review of
                                                                                  grant files, we generally were
                     able to follow the documentation throughout the course of                       the grants.
                     However, we encountered the following examples that impeded the
                     review process:
                     · Inaccurate dates-We found incorrect budget period dates on
                          progress reports and incorrect dates of proposed periods of support
                          on applications. In some instances, the correct dates were penciled
                          in, but this was not done in all cases, necessitating additional file
                          review to determine the correct dates.
                     · Inconsistent filing structure-NCI offcials told us that grant
                          applications were located in an electronic folder labeled Application
                          File. Although we found this to be true in the majority of grant files,
                          we found some with the first page of the application located in the
                          middle of a large (75+ page) folder labeled Grant File.
                    · Missing files-NCI maintains an Institutional File in which
                       grantees are listed in alphabetical order. This fie contains audit
                       and site visit reports. When we accessed the Institutional Files in
                          November 2007, we could not locate the fies for grantees beginning
                          with the letter "Y" (e.g., Yale University). It appeared that the
                          electronic fies for grantees beginning with the letter ''W' were
                          erroneously copied over the area where the Y files should have been.
                          No fies existed for institutions beginning with the letter Y and the
                          W files appeared twice.
                    NCllacks a consistent approach for documenting communication between
                    NCI and grantees
                    The NIH Grants Policy Statement emphasizes that NIH awarding
                    agencies, in regard to fulfilling their role as stewards of Federal funds,
                    monitor grants to identify potential problems and areas where technical
                    assistance might be necessary. In addition to reviewing progress and
                    financial reports, monitoring is accomplished through correspondence




 OEI.07.07-00120    MONITORING OF NCI RESEARCH PROJECT GRANTS                                                 15
FINDINGS
                  and site visits.26 NCI offcials told us that, if there are questions on
                  information reported in the progress report, the grants management
                  specialist may e-mail or call the grantee for clarifcation.
                  Documentation of communication with the grantee is up to the
                  discretion of the grants management specialist and can occur different
                  ways. E-mails may be scanned and appended to the end of the progress
                  report and fied in the Application File, or notes of a telephone
                  conversation may be transcribed and included with a grants
                  management specialist's review checklist in the Award File. The lack of
                  a consistent approach makes it more diffcult for a third 'party reviewer
                  to locate grant file documents.




                    26 NIH, "Grants Policy Statement," p. 128.



OEI.07-07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                             16
..    RECOMMENDATIONS


                   Most signicant to the overall monitoring of grants is ensuring the
                   completeness and accuracy of  progress reports. NClhas several grants
                   monitoring practices aimed at ensuring that progress reports are
                   reviewed and that grant funds are not awarded until progress reports
                   are received and accepted. In fact, NCI reviewed all progress reports to
                   monitor grantee performance. However, 41 percent were received late.
                   In some instances, NCI sent late notices 35 days after the grantees' due
                   date for the report. Furthermore, deficiencies exist in financial
                   oversight of Research Project Grants. Federal Cash Transaction
                   Reports are not monitored for unobligated fund balances, but instead
                   NCI relies on grantee-reported information. In our sample, 11 of
                   23 Financial Status Reports were late and five of nine required grant
                   closeouts were not completed within general departmental guidelines.
                   Finally, we generally were able to follow NCI's monitoring of Research
                   Project Grants in the fies, but insuffcient documentation impeded our
                   efforts in some cases.
                   Therefore, we recommend that NCI:
                   Initiate Earlier and More Frequent Followup With Grantees To Obtain
                   Required Documents Timely
                   Such diligence could promote grantee compliance with Federal
                   regulations and agency policies for submission of progress reports,
                   Financial Status Reports, and closeout documents.
                   Improve Grants Monitoring By:
                   · annually verifying grantees' self-reported fund balances with
                       external sources and developing an approach for financial reviews
                       that is not based solely on exceptions, and
                   · consistently documenting grantee correspondence and organizing
                       grant documents. This action could assist NCI staff, as well as
                       third-party reviewers, in following grantees' actions from inception
                       of the grant to closeout.




 OEI-07-07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                             17
RECOMMENDATIONS

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  NIH generally agreed with our recommendations and described actions
                  it plans to take in response to the recommendations. Regarding late
                  submission of progress reports, Financial Status Reports, and closeout
                  documents, NIH wil continue to address this issue in education
                  outreach sessions with grantee offcials and stress the need for
                  institutions to monitor and adhere to all report deadlines. In addition,
                  NIH expects to increase timeliness of reporting by grantees through
                  continued development and deployment of    its electronic grants
                  management system, enabling electronic submission of certain progress
                  and closeout reports. Regarding the recommendation to improve grants
                  monitoring by annually verifyng grantees' self-reported fund balances
                  with external sources and developing an approach for financial reviews
                  that is not based solely on exceptions, NIH agreed that there may be
                  value in using the Federal Cash Transaction Report on a broader scale
                  and wil conduct a pilot study to review the Federal Cash Transaction
                  Report prior to issuing the award for a specific pool of grants. At the
                  end of the pilot study, NIH wil identify the population of grants for
                  which review ofthe Federal Cash Transaction Report will be required,
                  as well as best practices for the review and for resolution of any issues
                  that arise from the review. Additionally, NIH agreed with the
                  recommendation that grant files be properly documented and
                  organized. NIH wil continue to monitor the use of its electronic grant
                  system and update procedures for file documentation as necessary.
                  We did not make any revisions to the report based on NIH's comments.
                  For the full text of NIH's comments, see Appendix C.




OEI.07.07-00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                             18
.. APPENDIX"'A
                   Glossary of Grant Terms

                   Application-Applicants seeking fiancial assistance for a project
                   formally request funds via an application. Applications are evaluated
                   for their scientifc merit and scored based on the project's potential
                   impact. The National Cancer Advisory Board conducts a second level of
                   review, evaluating grant applications in relation to the needs and
                   priorities of the National Cancer Institute (NCI). The entire process can
                   take approximately 10 months from application receipt to award.
                   Award-The provision offunds by NCI to an organization to carry out a
                   Research Project Grant based on an approved application and budget.
                   Budget Period-The interval oftime (usually 12 months) into which the
                   grant project period is divided for funding and reporting purposes.
                   Competitive Segment-The initial project period recommended for
                   support (usually 1 to 5 years) or each extension of the prior project
                   resulting from the award of a competing continuation grant.
                   Financial Status Report (FSR)-The FSR shows the status of    awarded
                   funds for the competitive segment as maintained in the offcial
                   accounting records of the grantee institution.
                   Notice of Grant Award-The legally binding document that notifes the
                   grantee and others that an award has been made. This document
                   contains or references all terms and conditions for the award and
                   documents the obligation of Federal funds. The award notice may be in
                   letter format and/or may be issued electronically.
                   Source: National Cancer Institute (NCn, "Everything You Wanted to Know About the NCI
                   Grants Process But Were Afaid to Ask." Revised August 2005.




 OEI.07-07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                                         19
..     APPENDIX-B
                                                                                 95-Percent
     Finding Point Estimate Confidence
                                                                                 Interval

     Percentage of FYs 2004, 2005, and 2006 progress reports that were
     not received timely                                                 41.4%         33.6%-49.2%




 OEI.07.07-00120          MONITORING OF NCI RESEARCH PROJECT GRANTS                                  20
..    APPENDIX                                                c

                                         Agency Comments
                                                                                     Public Health Service
(~    DEPARME Df HETH " RUMAN ..""..
.....""~l-
                                                                                     National   Institutes of Health
                                                                                     Bethesda,. Mary1and 20892




          ~JUN 20 2008


         TO: Daniel R. Levinson
                           Inspecor General, HHS

         FROM: Director
                           Natioii Institutes of     Health

         SUBJCT: National Insitutes of Health Comments on the Draft OlG Report

                           (OEI-07-07-00120) .
                           National Cancer lnstitue 's Monitoring of Research Project Grants



         Attached are our comments on the Offce of Inspector General draft report on grt
         monitoring at the National Cance Institute. We appreciat the opportty to review and
         comment on this report.

         We believe that our comments will help you iÌi prearing your final report on this.
         importt issue. If you have any questions, please contact    Patrcia Quast, in the NIH
         Offce of Manement Assesment, at 301-402-8264.




         Attchment
                                                     ~wû~Jr (fr




 OEI.07-07.00120           MONITORING OF NCI RESEARCH PROJECT GRANTS                                                   21
A P PEN D                     x        c




                    COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH (NIH)
        ON THE OFFICE OF INSPECTOR GENERAL DRAFT REPORT, NAnONAL CANCER INSTITUTE'S
                        MONITORING OF ReSEARCH PROJECT                   GRANTS (OEI-07-07-001iO)




      OIG RECOMMENDATION

      Initiate earlier and more frequent foUowup with grantees to obtain required documents
      timely. Such diligence could promote grantee compliance with Federal regulatiòns and
      agency policies for submission of progress report, Financial Status Reports, and closeout
      documents.

      NIH RESPONSE

      The Nll agrees in principle that ealier and more frequent follow up with grantees could result
      in greater grate compliance. In fact, we have taken extensive actions, including earlier and
      more frequent follow up with grantees, to improve gratee compliance with respt to timely
      submission. We will continue to addres this issue by exploring and testing different approaches
      to optimize grantee performance. The NIH fully expects that grtee performance will improve
      with the ful deployment of its electronic systems, as evidence by the data presente in the
                                                              their responsibility to submit accurate
      report. In addition, we will continue to remind grntees of

      and timely report, as described elsewhere in ths document. .

      The NIH and NCI have been working diligently to resolve the problem of late progress report as
      evidence by the extensive actions already taken. As documented by a previous OIG report
      grantees fruently submit incomplete or late progress report. We               agree that grtes' delay in
      submitting progress report poses a low risk because it is NIH policy that additiona fuds ar not
      awaded until progres reports are received, reviewed, and approved, as evidenced by NCI
      actions. Grantees are responsible for ensuring timely and accurte reporting. The NIH continues
      to achieve effciencies and improve performance of grantee institutions in this area.

      We have developed and implemented many initiatives to address the problems associate with
      late progress report. It is importt to understad. however, that although the Nl has and
      continues to develop tools for its grant recipients, it is absolutely imperative tht grtee have
      policies, procedur, and monitorig systems in place to ensure compliance with reportng
      requirements. Actions taen to specifically address late anual (Type 5) progress report
      include:

          . The Nll and NCI continue to address late as well as incomplete reports in education
              outrch sesions, clarifying Nll requirements and focusing on grtee responsibilties,
            . including those of     the PI, and the need for institutions to monitor and adhere to all report
              deadlines. The NCI continues to stress the importance of        timely and complete reports,
              specificaly citing data that ilustrtes the magnitude of the problem and the negative and
              costly impact late and incomplete reports have on NCI sta. NCI staff strss the




 OEI-Ol-Ol-00120           MONITORING OF NCI RESEARCH PROJECT GRANTS                                             22
A P PEN D                    x        c




             importce of grantees monitoring their own performance and implementing appropriate
             measuÎs to ensur reporting compliance. The NIH and NCI will continue to stress
             reporting requirements and compliance at all outreah meetings with grantee offcials.

                                              though the eRA Commons, an electonic grnts
         · In 2004, the NTH implemented a system

                                                                         the Stramlined
             mangement system, enabling grantes to submit an electronic verion of

             Noncompeting Awar Proces (e-SNAP) Type 5 progress report.

                             · E-mail reminders are sent to Principal Investigators (PIs) two months
                                 before a Type 5 prog;ess report is due.

                             · E-mail reminders ar sent to Principal Investigators when a Type 5
                                 progress report is more tha I 5 days late.

                             · Similar e-mail reminders are in development for business offcials at
                                 grantee institutions.

                             · As noted above, grantees are responsible for monitoring and meeting
                                 reporting deadlines. To assist that effort, we have creted a Web site
                                 that grantees can access for noncompeting progress report (Typ 5) due
                                 date informaton. This allows grtee offcials to obta a list of    when
                                 all Typ 5 progress report for their institution are due and when reports
                                 are delinquent (htto:/lera.nih.gov/userreportsfor due.cfm). Due date
                                 information is also available in the eRA' Commons Status system
                                 accessible by both PIs and institutional Administrtive Offcials.

     Final progress reports are one element of grt closeout docwnentation. To address late final
     progress reports, we have taen the following actions:

         · In June 2005, we introduced a new Closeout featu in the eRA Commons that provides
            the capabilty    to electronicaly submit required Closeout Reports: final progress report
            final Financial Statu Report (FSR), and final inventions statement.


         · All grtee institutions are required to be registered in the eRA Commons, which allows
            them to query in the Commons Status system for those grts that are in a closeout
            statu. Commons users can then enter the Closeout screens to electronically process and
            submit the reuired report.


         · A Term of Awar is automatically included in the Notice of Award for the final year of
             the project period reminding grantees of the requirement to submit closet information
            using the eRA Commons withn 90 days of              the end of   the project peod.

         · To assist NIH grants management staf in addressing the pròblem of late closeout, we
             developed an electronic closeout module in IMP AC II. In 2004, we made it a

                                                            2




OEI-07-07-00l20          MONITORING OF NCI RESEARCH PROJECT GRANTS                                          23
A P PEN 0                     x        c




               requirement that all NIH Institutes and Centers use the closeout module for all grant
               awards expirng on or afer October I, 2004.

           · In fiscal year 2008, we completed the tranition of administrative closeout fuctions from
               all NIH Institues and Centers (lCs) to the Division of Extrural Activities Support
               (DEAS). The DEAS is responsible for grants closeout, in acrdance with standard
               operating proedures, for all of the NtH awarding components.

           . NIH grts management staff no longer perform closeout fuctions.

      The data in the report indicate tha for the 100 sampled NCI grants, i 3 percent of the electronic
      progress report were received late in contrast to 49 percent ofpaper progress reports that were
      received late. We believe that when the NIH electronic systems ar fuly developed and
      electronic submission of Typ 5 progress reports is required, timeliness will improve, as
      suggested by the data in this report Until then, we wil continue om efforts to address late
      Type 5 progress report.


      OIG RECOMMENDATION

      Improve grants monitoring by annually verifying grantees' self-reported fund balances
      with external sources and developing an approach for financial reviews that is not based
      solely on exceptions.

      NIH RESPONSE

      The NCI agees ther may be value in using the Fed..ral Cash Tranaction Report (FCTR)
      (pMS 272) on a broader scale than is currntly being done. In order to determine the best most
                      the 272 report NCI will conduct a pilot study.
      productive use of



      The arual progress reports for SNAP applications require that the gratee answer th
      questions, including whether they anticipate an unobligated balance grater th 2S percent of
      the current year's total budget. Similar inormation on signficant balaces (25 percet of the
      curnt year's tota authorized budget) is also requested as par ofthe budget justification in non-
      SNAP progress reports. NCI Offce of Grants Administraion (OGA) staff review the
      information provided in conjunction with program sta review of the progress report in the
      application. If there appea to be discrepancies between the report balance and the progress
      made in the project, they are discussed with the grantee. In addition, ifthe grantee report a
      large balance, OGA sta    will contat the grtee to verify th magnitude of     the balance and
      discuss options for use of the funds based on the cirumces (e.g., reducing the pending
      award, allowing the caover on the pending award, or restrcturing timelines). The FCTR
      (pMS 272) wil also be reviewed in grants for which there appear to be problems or
      discrepancies in reporting of     balances in the progress report. .



                                                               3




 OEI.07.07.00120           MONITORING OF Net RESEARCH PROJECT GRANTS                                      24
A P PEN D                         x        c




      Submission of the FCTR is monitored by staff of the Payment Management System (PMS). All
      OGA staf have access to the PMS and review the FCTR on an as-needed basis. Th FCTR is
      one of the tools usedby OGA staf to monitor balances in grt awars, when necessarý.
      However, the limitations of          this data as a monitoring tool     nee to be noted.

      The PMS is based          on the calendar yea, so information raly coincides with the budget period
      for any partcular grant. In addition, the FCTR reports are baed on quaerly draw downs
      (March 31, June 30, Septembe 30, and December 31 ),and report are not due frm the grantee
      until   45 days after the end of       the quar, so expenditure analysis is not curent. However,
      becuse the report provide a general indication of                the baance remaining in a grant account, they
      are used as an additional monitorig tool, as the paricular situation warrants. A worksheet is
      available for grts management staff to asist them in using the FCTR information as a fiscal
      monitoring tool.

      In response to the recommendation, the NCI will conduct a pílot study to develop an~ evaluate
      best practices for reviewing FCTR reports and to determine for which population of grants this
      review is appropriate, given the limitations of the PMS report noted abve.

      Specifically, the NCI plans to institute:

                  . A pilot study to conduct a review of              the FCTR (pMS 272) report prior to issuing the
                         awar for a specific pool of grants.
                  · If     the PMS 272 reflects that the grantee has accurately reported the anticipated
                         unobligated balance in the progress report, the fie will be docwnented accordingly.
                  . If a review of the PMS 272 rases questions or concerns about the gratee's
                         reportng of     the balance, the specialist will reuest additional infonnation from the
                                                                                                     the fie
                         accordingly. . .
                         grantee, will tae appropriate action as necssar, and will document


                  · At the end of         the pilot stuy, the NCfwill evaluate the data and develop appropriat
                         stadard operating procedur. The procedures will identify the population of
                         grants for which the Grats Speialist wil be required to review the FCTR
                         PMS 272 report, as well as the best practices for the review and for resolution of
                         any   issues tht arise from the review.




      OIG RECOMMENDATION

      Improve grants monitoring by consistently documenting grantee correspondence and
      organizing grant dCKuments to assist NCI staff and third-party reviewers with following
      grantees' actions from inception of             the grant to closeout.


      NIH RESPONSE

      The NCI agrees with the recommendation that offcial fies be properly documented and
      organized. We note that the reviewers were generally able to follow the documentation

                                                                  4




 OEI.07-07-00120               MONITORING OF NCI RESEARCH PROJECT GRANTS                                               25
A P PEN D                       x       c




      thoughout the coure of         the grants and conf tha the NCI had proper docuentaon for its
      actions. As discussed below, the NCI has and will continue to inonitor and improve eGrats for
      all users.

      The NCI has develope an implemented a fuly      integrated stae-of-the-ar electronic grat file
      system known as eGrants, which staff continualy monitor, evaliite, and improve. The NCI's
      prima goal is to mantain and enhance an electronic grant fie system that is curent, complete,
      consistently organized, and user frendly. The eGrats system allows authorized users to easily
      follow and review the flow of grt documents from inception to closeout.

      The NCI OGA has always reCognized the             need to have a consistent andeffcient electronic grat
      fie. In order to promote consistency in fie documentation, OGA has developed and continually
      updtes guidance to staff. "The List of Standard Practices for Electronic Review and
      Documentation of         Grt Files," dated November 2007, has a list of stadad practice for
      electronic documentation of grt files. We will continue to monitor the use of eGrats and to
      updte our procdUres for fie documentation as necessary.

      A history of   the evolution of eGts is attched        for fuher reference.




                                                                                                      6/19/08




                                                             5




 OEI.07.07.00120           MONITORING OF Nei RESEARCH PROJECT GRANTS                                            26
A P PEN D                      x         c




                                                    AITACHMENT


      The NCI Offce of Grats Administration (OGA) traition from working with a well-organized
      offcial paper-based grant fie to an eleconic document management systm has taen place
      over the last i 4 years. It has been.a process incrementa in natue, with tranitional staes being
      implemented to take advantage of            the most rect advances in technology. During ths time
      period-specific guidelines for sta regarding fie documentation, indexing stdads,
      bookmaking, etc., have periodically been revised and updated based on user feedback from
      grants management       and program stff, as well as extrnal comments made by independent
      entities.

      The trsition from paper to electronic fies began in 1993, with a feaibilty study regarding the
      tranition of the application fie back-up from microfiche to an Electronic Imaging Management
      Systm.

      In 1996, the conversíon system was implemented-a back-fie conversion of
                                                                                                    grt applications
      to indexed electronic images-tis went back to the last competing yea. The back-file
      conversion was completed in 1999 with 2.5 millon pages scaed in the eGrts database.


      In i 998, we began niing demonstrtions of              the electronic fie system in multiple small group
      settings to a vanety ofNCI, NIH, and grtee staff. A significant purse ofthese
      demonstrtions was to get user feedback. In Marh 2000; eGants was rolled out for extensive
      NCI extramurl use as a Web-based system.

      In November 2002 (fiscal-year 2003), the NCI began processing SNAP applicaions exclusively
      using eGrats, eliminatng the paper files for these mechanisms.

      In April 2004, we moved into processing other types of mechanisms using eGrants. This
      amounted to approximately 70 percent of the workload. However, for the more complex
      mechanisms, staff was stil marking up paper copies that were .then rescanned into eGrats:

      In Augut 2004, thee flat panel LCD c~nfiguations were intrduced to OGA staffto enable
                                             their portfolio electronically.
      them to work the remaining 30 percent of



      In October 2004 (fiscal year 2005), NCI Grants staf            began working 100 percent of        the grt
      portfolio electrnically-meaing no paper 'fies at a11-ad we began destroying existing paper
      fies:

      In FY 2006, over 20 percent (i ,200 linear feet) of the OGA' s records mangement center shelves
      were empty. Currently, the OGA does not have any paper fies in the records management
      center, over 35,000 active paper grts fies have been shredded, and all of our offcial fies are
      kept in the eGrts database.


                                                               6




 OEI-07-07-00120           MONITORING OF NCI RESEARCH PROJECT GRANTS                                                   27
A P PEN D                     x        c




      As previously stated, the OGA manages i 00 percent of grant portolios electrnically. This
      business practice is possible by utilizing the eGrants database and the Adobe Acrobat softare.
      In order to maintan a consistent and effcient grant folder, the OGA has once again updated its
      guidance to stff "The List of Stadad Practices for Electronic Review    and Documentation of
      Grat Files," dated November 2007, is a compilation of stadad practices for electrnic
      documentation of grt files, and the OGA has shared this document with the nine other ICs that
      are curently using eGants.

      We feel that we have consistently documented the grant files and organized grant documents to
      assist and facilitate NCI sta and third-pary reviewers with following grtees' actions from
      inception of   the grt to the closeout.




                                                                                              6/19/08




                                                               7




 OEI.07.07.00120           MONITORING OF NCI RESEARCH PROJECT GRANTS                                    28
.. ACKNOWLEDGMENTS

                   This report was prepared under the direction ofBrian T. Pattison,
                   Regional Inspector General for Evaluation and Inspections in the
                   Kansas City regional offce.
                   Tricia Fields served as the team leader for this study. Other principal
                   Offce of Evaluation and Inspections staff from the Kansas City regional
                   offce who contributed to the report include Michael Barrett, Rae
                   Bozworth, and Dennis Tharp; other central offce staff   who contributed
                   include Robert Gibbons and Mark Richardson.




 OEI-07.07.00120   MONITORING OF NCI RESEARCH PROJECT GRANTS                           29
